                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A11050035                                                                       Page 1 of 1



                 We received a substantive allegation that a PI1 (Subject) plagiarized text and test results
         in an NSF Proposal. 2 We referred the investigation to the University, 3 which interviewed the
         Subject and the student who had authored the Proposal. The University concluded, based on a
         preponderance of the evidence, that the Subject's actions were a significant departure from
         accepted practices. Although their report used the term "careless" to describe the Subject's level
         of intent, the report makes clear the act was committed at the least serious level of intent
         necessary for a finding of research misconduct, which, according to University Policy is
         "reckless".

                 We could not accept the University's Report in its totality in lieu of conducting our own
         investigation. We wrote to the student to obtain more information about the process and the test
         results data copied into Proposal tables. Based on the preponderance of the evidence, we
         concluded that the Subject recklessly plagiarized in his NSF Proposal, which we deemed a
         significant departure from accepted practices and recommended actions to protect the federal
         interest. The Senior Advisor to the Director concurred with our recommendations.

                 This memo, the attached Report of Investigation, and the Senior Advisor's letter
         constitute the case closeout. Accordingly, this case is closed.             ,




NSF OIG Form 2 (11/02)
SENSITIVE                                                                              SENSITIVE




       National Science Foundation
        Office of Inspector General




                  Report of Investigation
                 Case Number A11050035
                                 May 8, 2013


                        This Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 5 52a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
SENSITIVE                                                                               SENSITIVE


                                     Executive Summary


Allegation:       Plagiarism.

OIG Inquiry:        Our review identified 123 lines, 2 figures, 1 table, and 8 embedded references
                    copied from 6 sources into an NSF proposal with one PI (Subject). In his
                    response to our letter, he admitted to inaccuracies in the references due to
                    some accidental deletions and his belief that quotation marks were
                    unnecessary. We referred investigation of the matter to the Subject's
                 __ university (University).

University
Investigation:    The University interviewed the Subject and found that a student wrote the
                  Proposal, though the Subject's personal situation prevented him from
                  reviewing the student's draft thoroughly. The Committee concluded that his
                  lack of careful review constituted research misconduct.
OIG
Investigation:    We concurred with the Committee's overall findings. We also wrote to the
                  student who stated that he consider.ed his version a draft and believed it would
                  be revised. He had also believed that citations within the text of the Proposal
                  were sufficient attribution for the data used in 2 figures and 2 tables.
OIG
Assessment:
                  •    The Act: The Subject's actions constitute plagiarism of 123lines, 2
                       figures, 2 tables, and 8 embedded references from 6 sources.
                  •   -Intent: The Subject acted recklessly.
                  •    Standard of Proof: A preponderance of evidence supports the conclusion
                       that the Subject committed reckless plagiarism.
                  •    Significant Departure: The Subject's plagiarism represents a significant
                       departure from accepted practices of the research community.
                  •    Pattern: The Subject does not have a pattern of plagiarism.

OIG
Recommends:
                  •   Make a fmding of research misconduct against the Subject.
                  •   Send the Subject a letter of reprimand.
                  •   Require certifications from the Subject for a period of 1 year.
                  •   Bar the Subject from participating as a peer reviewer, advisor, or
                      consultant for NSF for a period of 1 year.




                                                1
SENSITIVE                                                                                 SENSITIVE


                                                 OIG's Inquiry

        We conducted an inquiry into an allegation of plagiarism in an NSF proposal (Proposal). 1
The ProRosal contained 123 lines, 2 figures, 1 table, and 8 embedded references co1,ied from 6
sources. We contacted the        Pe
                                (the Subject) aJ:mut the allegation. 4 In his response, he said that
he had cited some sources, but he had done "a poor job in placing most of the references ... Also,
I assumed that by citing the references was sufficient and therefore I omit quotations. " 6 He
wrote, "Regarding the figure and table, these were built using data from" 7 Source B. He also
explained that he was experiencing an extreme mental strain at the time of submission due to
personal circumstances, stating "I think this whole incident was due to my poor judgment in
submitting the proposal· when I was living under very stressing conditions. " 8

        Based on our inquiry, we concluded that there was enough substance to proceed to a full
investigation. Consistent with our regulation, 9 we referred the investigation to the Subject's
University. 10

                                  University Inquiry and Investigation

 ·       University policy 11 required it to conduct its own inquiry. An Inquiry Committee
reviewed the allegation and produced an Inquiry Report. 12 The Inquiry Committee concluded
that a full investigation was warranted due to improperly attributed text and to instances of the
Subject interweaving his own results with that of another researcher's without citation. 13 The
Subject submitted a response to the Inquiry Report in which he generally disagreed with the
conclusions, believing the existing citations to be adequate except in two instances. He also
stated that he did "not properly supervise the writing of the proposal," 14 and that "(a]11 happened
because of my inability to see that I shouldn't have submitted the proposal in the condition that I
was." 15

       The University appointed an Investigation Committee (the Committee) which reviewed
our materials, reviewed 10 other NSF and NIH; proposals of the Subject's, and interviewed the
Subject. During the Subject's interview, he "admitted to leaving the writing the bulk of the




5
  Tab 4.
6
  Tab 4, Attachment 1, p. 2.
7
  Tab 4, Attachment 1, p. 2.
8
  Tab 4, Cover Letter.
9
  45 C.F.R part 689.
10 . . . .                              Tab 5 contctins the Referral Letter.
ul!!l
12
   Tab 7.
13
   Tab 7, Inquiry Committee Report, p. I.
14
   Tab 7, Response to Inquiry Report, p. 1. [p. 2 of PDF]
15
   Tab 7, Response to Inquiry Report, p. 1. [p. 2 ofPDF]


                                                            2
SENSITIVE                                                                                SENSITIVE


proposal to his graduate student and not reviewing it carefully, or at all." 16 The Committee
therefore interviewed the Subject's Ph.D. student (the Student) and interviewed the Subject's
Department Chair to evaluate whether it was appropriate practice to have a doctoral student write
a Proposal without credit. Upon conclusion of the investigation, the Committee members
produced a Report oflnvestigation17 with attachments. 18

        In the Subject's interview, he told the Committee that the Student wrote the proposal,
with the Subject's contribution being limited to corrections. 19 The Subject stated that, typically,
there are several revisions,20 but that did not happen this time because he was unable to          ·
concentrate. 21 When asked if he would have noticed inappropriate attribution in the absence of
the personally stressful conditions, he said, "That's a good question .... It seemed that it's too
much. So I might. But I cannot say 100 percent that nobody can catch this or that. [D]efinitely, at
that time, I don't think I would catch it.. I was in very bad shape to discover anything at that
time."22 He argued his personal circumstances rendered him unable to reason and he
acknowledged that the Proposal should not have been submitted in that form? 3

        The Subject stated that his original omission of the student's involvement was caused by
an inability to think clearly due to his personal situation. 24 He also stated that, while it was
standard practice to have doctoral students write the bulk of grant proposals, it was not possible
to include students as authors. 25 The Committee confirmed this by interviewing the Chair26 of the
Subject's Department at the University, who stated that the department has traditionally
conside~ed students' proposal writing to be common and vital training, 27 though these practices
may require reconsideration since students may not be listed as authors of NSF proposals? 8

        In the Student's interview, he confirmed that he wrote the Proposal, though he stated that
this was the first one he had written alone. 29 He also said he lacked expertise in certain topics
within the Proposal and he only had "about ten days" 30 to draft the Proposal. He had also
believed the Subject would thoroughly revise the Proposal before submission. The Student stated
that he understood proper attribution (and described it31 for the Committee).

        The Committee concluded that the Subject committed plagiarism which did not rise to
the level of reckless because he did not know there was copied text in the Proposal. It was also

16
   Tab 8, Report, Section III. [p. 6 of PDF]
17
   Tab 8.
18
   Tab 9.
19
   Tab 9, Inter-View Transcripts, Transcript 1, p. 9, lines 12-13.
20
   Tab 9, Interview Transcripts, Transcript 1, p. 15, lines 2-4.
21
   Tab 9, Interview Transcripts, Transcript 1, p. 32.
22
   Tab 9, Interview Transcripts; Transcript 1, p. 28,lines 3-17.
23
   Tab 9, Interview Transcripts, Transcript l,p. 32, lines 8-10.
24
   Tab 9, Interview Transcripts, Transcript 1, p. 8, lines 8-14.
25
   Tab 9, Interview                                30-31.
26                                                    •••••••
27
   Tab 9,          Transcripts, Transcript 3, ""'"'UI'.LJ.vu•.
28
   Tab 9, Interview Transcripts, Transcript 3, p. 16-17.
29
   Tab 9, Interview Transcripts, Transcript 2, p. 3, line 24.
30
   Tab 9, Interview Transcripts, Transcript 2, p. 5, line 17.
31
   Tab 9, Interview Transcripts, Transcript 2, p. 7, lines 3-5.

                                                                                                       ·-,
                                                                                                       -'
                                                             3
SENSITIVE                                                                                                      SENSITIVE


not intentional, since he did not intend for the Student to plagiarize. They concluded that his
intent was "careless"32 and stated:

                  We conclude that the actions of [the Subject] in asking the student to write
                  the proposal, assuming that the student was aware of the norms concerning
                  plagiarism, and not carefully reviewing the work for copied material to be
                  careless. [331

         While the Committee usedthe term "careless", the Report iri.dicates that the Committee
determined the act was committed at the least serious level of intent necessary for a finding of
research misconduct. The Cmimlittee concluded that the act was a significant departure from
          ..       "!!   ..    .,      .,.            ..,        .......   -       .,.....,.   ...   •.   ..      ........

~.;ui_IliDumty stanUard.s, as snown by a preponderance ot the eVl(ience. nased. onrts review ot ills

other proposals, the Committee concluded that his actions were not part of a broader pattern, nor
did they have a significant impact on the research record.

         The Committee made the following recommendations: 1) the Subject be required to
certify that his external proposals do not contain plagiarism for a period of one year; 2) that the
University require training for all graduate students; and 3) that the University find ways to
acknowledge "material participation of students in grant proposals in the official submissions to
                                    34
granting agencies or foundations."

       The Provost accepted the sanction pertinent to the Subject and added the following two
sanctions:

                  First, no student may write any part of any proposal you submit to any
                  funding source at any time during the remainder of your career at [the
                  University]. And second, that you will receive no merit increase for the
                  next two academic years ... and will not be considered for promotion to
                  Professor at [the University] in the next five years. 35

                               OIG's Assessment of the University Report

        We assessed the Report for accuracy and completeness and whether the University
followed reasonable procedures in its investigation. 36 We found that the general procedures were
reasonable, the report was complete, and the University provided an acceptable evidentiary
record. However, a research misconduct finding of plagiarism at the level of "careless" is
inconsistent with the NSF Research Misconduct Regulation37 and the Committee's discussion of
intent was based on its own understanding of the levels. Therefore, we could not fully accept its
report.



32
   Tab 8, section m. [p. 6 of PDF]
   Tab 8, section m. [p. 7 of PDF]
33
34
   Tab 8, section V. [p. 8 ofPDF]
35
   Tab 8, Provost Letter to Subject, p. 1.
36
   45 C.F.R. §689.9(a).
37
   The definitions and levels of culpable intent in the University's Policy match NSF's regulation.


                                                            4
SENSITIVE                                                                                    SENSITIVE


                                             OIG's Investigation

        We notified the Subject that we were proceeding with our own investigation and invited
                                       38
comments on the University's report. In the Subject's response, he stated that he agreed with
the general findings and recommendations, though he had had no intention to submit a Proposal
with improperly attributed text. 39 He also reiterated that his department deems it important to
have students write proposals for training purposes, but "unfortunately, there is no recognition of
the student's work, as students are not allowed as co-Pis."40 He also stated that normally the
faculty and students "go through endless revisions and meetings until it is done. In this proposal
because of the extenuating circumstances that I was living, this didn't happen.'.4 1

        With regard to the data apparently copied into tables and figures along with new data, the
Subject's interview did not clarify whether he and his student(s) replicated the source's tests
themselves as well as performing a new test, or whether they ran only one new test and simply
grouped existing and new results together. 42 It was also unclear whether the Student had
understood proper citation methods before the investigation. We wrote to the Student43 to inquire
about these and other matters and to request his CV.
                           44
        In his response, he explained that the Subject gave him approximately two weeks to
draft the Proposal. He also explained that the Proposal explored multiple research areas, one of
which he knew very little about. According to the Student, the Subject reviewed it once and
requested revisions and additions. Nine days later, the Subject asked to see the Student's draft.
The Student said, "I never expecting this draft would be submitted without serious review and
           45
revision.'' In response to our question about his previous understanding of plagiarism, he said
simply, "As I understand, plagiarism means exact copy and paste without any reference." 46
When asked why, despite guidance from the GPG47 , he was not acknowledged as an author, he
stated, "No one ever talked to me about my contribution and my responsibility to this proposal. I
just did what I was asked to do, I did not have any control over who should be named and
 .                                          48
acknowledged, as well as what to submit."

          For the 1 table and 2 figures which appeared to use unattributed results, he stated: "I once
asked the PI if it is all right to put newly obtained results and published results in the same figure
or table, the PI said it is OK to put them together to compare as long as the reference was put
there ... .'.49 He also wrote that another table in the Proposal mixed others' resUlts with their new
result, though he argued that "references are given." 50 He identified the line from the Proposal
38
   Tab 10.
39
   Tab 11.
40
   Tab 11, p. l.
41
   Tab 11, p. 1
42
   Tab 9, Interview Transcripts, Transcript 1, p. 23-24.
43
   Tab 12.
44
   Tab 13.
45
   Tab 13, "StudentRespo~se", Answer2.
46
   Tab 13, "Student Response", Answer 3b.
47
   GPO section LD.3
48
   Tab 13, "Student Response", Answer 3d.          ,
49
   Tab 13, "Student Response", Answer 5. There were no citations on the figures or tables.
50
   Tab 13, "Student Response", Answer 6.


                                                         5
SENSITIVE                                                                                       SENSITIVE


that cites the source from which the figures and tables came, though we found this line was
located far from the pages with the results in question. We noted that the source was also cited
twice among several other citations. Nowhere does it make clear that most of the results shown
in the figures and tables originated elsewhere.

                                                OIG's Assessment

        Though the Provost, the Committee, the Department Chair, and the Subject argued that it
was not possible to list the Student as an author because a student could not be a co-PI, the NSF
Grant Proposal Guide (GPG) states that "[a]uthors other than the PI (or any co-PI) should be
named and acknowled~ed. Serious failure to adhere to such standards can result in fmdings of
.reseatch iJ.J.iscon~uct."J' Tnerefore, though ''-'ille respo.nsibility fut proper attribution and citation
rests with authors of a proposal", it is the responsibility of the PI and awardee administration to
include the names of all authors.

        The inappropriate copying by the Student represents a deviation from acceptable
practices of research. We took his background and lack of experience in writing grants or other
publications into account and determined that his actions warranted a Questionable Research
Practices warning letter from our office.

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 52

                                                      The Act

        Our review found the Subject conducted minimal review of a Proposal on ~hich his
name appeared as the sole author. The Proposal was actually written by a student who had
limited grant writing experience as well as limited knowledge of some topics within the
Proposal. The Subject admitted that he did "not properly supervise the writing of the proposal."53
The Subject's actions resulted in the submission of a Proposal with significant amounts of
plagiarized text and represent a significant departure, from accepted practices. We determined
that the Subject's actions constitute plagiarism.

                                                       Intent

       We conclude that a preponderance of the evidence demonstrates the plagiarism was
committed recklessly. NSF advises that proposals "should be prepared with the care and
                                                      54
thoroughness of a paper submitted for publication." As the sole author of the Proposal, it was
the Subject's responsibility to ensure that it adhered to proper standards for differentiating


51
   GPG section I.D.3
52
   45 C.F.R. §689.2(c).
53
   Tab 7, Response to Inquiry Report, p. 1. [p. 2 of PDF]
54
   GPG section I.D.3


                                                            6
 SENSITIVE                                                                               SENSITIVE


others' work. However, he did not exercise due diligence, which he claimed was due to his
personal circumstances.

        The Subject cited poor judgment in submitting the Proposal to NSF: "I am guilty of bad
judgment. Not bad judgment, but being unable to judge a bad situation in those conditions. That's
the bottom line."55 In his interview, he acknowledged that submitting the Proposal during his
personal upheaval was reckless. "Looking back, I should have stopped that proposal, but I was
unable to do anything .... So I guess if I am guilty of anything, it would be not being able to
reason at that time. " 56

        The Subject has argued that he was not in the right frame of mind to give the proposal the
diligent review it merited. We conclude that he acted recklessly by submitting a proposal with
minimal review, ignoring the risks created by the Student's lack of writing and scientific
expenence.

                                                  Standard ofProof

         We conclude that the preponderance of the evidence indicates that the Subject acted
 recklessly.

                        Subject's Response to OIG's Draft Investigation Report

          The Subject responded to our draft rep~rt57 to make the observation that the University's
· requirement of 1 year of certifications had already begun and opined that any additional
  certification requirements imposed by NSF should be imposed retroactively to coincide with the
  University's requirements so as not to have the effect of lengthening sanctions against him. His
  comments did not alter the content of our report or our recommendations.


                                       OIG's Recommended Disposition

        When deciding what appropriate action to take upon a finding of misconduct, NSF should
 consider:
              (1) How serious the misconduct was; (2) The degree to which the
              misconduct was knowing, intentional, or reckless; (3) Whether it
              was an isolated event or part of a pattern; (4) Whether it had a
              significant impact on the research record, research subjects, other
              researchers, institutions or the public welfare; and (5) Other
              relevant circumstances. 58




 55
    Tab 9, Interview Transcripts, Transcript 1, p. 33, lines 10-12.
 56
    Tab 9, Interview Transcripts, Transcript 1, p. 9, lines 8-9.
 57
    Tab 14.
 58
    45 C.F.R. § 689.3(b).


                                                             7
SENSITNE                                                                                 SENSITIVE


                                                      Seriousness

       The plagiarism in this case was moderate, amounting to 123 lines of plagiarized text and
8 embedded references from 6 sources. In addition, 2 figures and 2 tables contained the Subject's
new results inappropriately combined with other researchers' results. ,

                                    Pattern and Impact on Research Record

       We accept the Committee's conclusion that no evidence of a pattern or impact on the
research record occurred.


                                                 Recommendations

         Based on the evidence, OIG recommends NSF:

              •   Send a letter of reprimand to the Subject informing lllm that NSF has made a
                  finding of research misconduct;59

         For a period of 1 year as of the date of NSF's fmding:
             • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
                NSF. 60
             • Require for each document (proposal, report, etc.) to which the Subject
                contributes for submission to NSF (directly or through his institution),
                    o the Subject to submit a contemporaneous certification to the AlGI that the
                        document does not contain plagiarism, falsification, or fabrication. 61




59
   A Group I action (45 C.F.R. §689.3(a)(l)(i)).
60
   A Group ill action 45 C.F.R. §689.3(a)(3)(ii).
61
   This action is similar to 45 C.F.R. §689.3(a)(l)(iii).


                                                            8
                                NATIO.NAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230



                                                                              DEC 1 B 2013

   OFFICE OF THE
  DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED                                                            i /




       Re:    Notice of Research Misconduct Determination


Dear-:



           As documented in the attached Investigative Report prepared by NSF's Office of
Irispector General ("OIG"), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defmes "plagiarism" as "the appropriation of another person's ideas, processes, res1:11ts or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding ofresearchmisconduct
requires that:                          ·

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

         Your proposal. contained verbatim and paraphrased text copied from multiple source
documents. By authoring a proposal that copied the ideas or words of another without adequate
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
                                                                                               Page 2
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 4 5 CFR § 689 .2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that ari institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension ot termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).
                                                                                                         . ;
                                                                                                           i
        In determining the severity of the sanction to impose for research misconduct, I have              i
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern of
misconduct, and had no impact on the research record, as well as other relevant circumstances.
45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until December 1, 2014, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material; and

        (2) By December 1, 2014, you must attend a training course on research ethics, including
            a discussion on citation practices, and provide a certificate of attendance to the OIG
            that you have completed such a course.

       The certifications and certificate of attendance should be submitted in writing to OIG,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.
                                                                                             Page 3
 Procedures Governing Appeals
          Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
  of this decision, in writing, to the Director of the Foundation. 45 CFR § 689JO(a). Any appeal
· should be addressed to the Director at the National Science Foundation,4201 Wilson Boulevard,
  Arlmgton, Virginia 22230. If we do not receive your appeal within the 30-day period, this
  decision will become finaL

        For your information, we are attaching a
 any questions about the foregoing, please call
 292~.



                                                      Sincerely,




                                                       Fae Korsmo
                                                       Senior Advisor


 Enclosures
    Investigative Report
                                                                                                       '
    45 C.F .R. Part 689                                                                                I

                                                                                                       i
                                                                                                           I
